Department of Health and Human Services
             OFFICE OF
        INSPECTOR GENERAL




  ILLINOIS STATE MEDICAID
   FRAUD CONTROL UNIT:
    2012 ONSITE REVIEW




                        Stuart Wright
                  Deputy Inspector General for
                   Evaluation and Inspections

                         June 2013
                       OEI-07-12-00510
EXECUTIVE SUMMARY: ILLINOIS STATE MEDICAID FRAUD CONTROL
UNIT: 2012 ONSITE REVIEW
OEI-07-12-00510

WHY WE DID THIS STUDY

The Office of Inspector General (OIG) oversees all Medicaid Fraud Control Units
(MFCU or Unit) with respect to Federal grant compliance. As part of this oversight,
OIG reviews all Units. These reviews assess Unit performance in accordance with the
12 MFCU performance standards and monitor Unit compliance with Federal grant
requirements.

HOW WE DID THIS STUDY

We based our review on an analysis of data from seven sources: (1) a review of policies
and procedures and documentation of the Unit’s operations, staffing, and caseload;
(2) a review of financial documentation; (3) structured interviews with key stakeholders;
(4) a survey of Unit staff; (5) structured interviews with the Unit’s management; (6) an
onsite review of case files; and (7) an onsite review of Unit operations.

WHAT WE FOUND

Our review of the Illinois Unit identified instances of noncompliance with Federal
regulations and instances where the Unit could better adhere to performance standards.
The Unit’s organizational structure with regard to the Unit’s attorneys conflicts with
certification requirements and attorneys assigned to the Unit are ineligible for Federal
reimbursement. Opportunities for improvement in the Unit’s adherence to the
performance standards include, but are not limited to, reporting all convicted individuals
for exclusion purposes, updating the Unit’s Memorandum of Understanding with the
State Medicaid agency, improving communication and collaboration efforts with external
stakeholders, and establishing a minimum number of training hours required for each
professional discipline.

WHAT WE RECOMMEND

We recommend that the Illinois Unit submit a corrective action plan within 30 calendar
days from the date of the final report to resolve the Unit’s noncompliance with the
certification requirements and the full-time employment rule for attorneys. The Unit
should also work with OIG’s MFCU oversight division to ensure full compliance with
each of the 12 performance standards. The Illinois Unit concurred with six
recommendations and concurred in part with four recommendations.
TABLE OF CONTENTS

Objective ......................................................................................................1 

Background ..................................................................................................1 

Methodology ................................................................................................5 

Findings........................................................................................................8 

           For FYs 2009 through 2011, the Unit reported combined civil and 

           criminal recoveries of nearly $141 million and 97 convictions .......8 

           The Unit’s organizational structure for its attorneys conflicts 

           with the MFCU certification standards, and attorneys 

           assigned to the Unit are ineligible for FFP ......................................9 

           With the exception of a lack of compliance with certification 

           standards and the full-time employment rule, our review of 

           financial documentation found no deficiencies in the Unit’s

           fiscal control of its resources .........................................................10 

           The Unit did not report to OIG the identities of 56 convicted 

           providers for the purpose of program exclusion ............................10 

           The Unit’s MOU with the State Medicaid agency does 

           not reflect current requirements .....................................................11

           Unit case files lacked supervisory approval and documentation 

           of reviews of case files...................................................................11

           The Unit investigated three cases in our sample unrelated to 

           Medicaid and one case that did not follow prosecution referral 

           protocol ..........................................................................................12 

           The Unit’s director and management team reported that the 

           case management and tracking system is inadequate ....................12 

           Key stakeholders reported a lack of communication and 

           cooperation from the Unit’s Northern command ...........................13 

           Unit training plans did not identify a minimum number of 

           required training hours for each professional discipline ................14 

           Other observations: Effects of Unit director turnover and 

           drug diversion awareness training .................................................14 

Conclusion and Recommendations ............................................................16 

Appendixes ................................................................................................20 

          A: Social Security Act ...................................................................20 

          B: Performance Standards.............................................................21 

          C: Population and Sample Distribution of Case Files Open 

          Any Time During Federal Fiscal Years 2009 Through 2011 .........25 

          D: Investigations Opened and Closed by Provider Category 

          for Federal Fiscal Years 2009 Through 2011 .................................26 

          E: Medicaid Fraud Control Unit Referrals by Provider 

          Category for Federal Fiscal Years 2009 Through 2011 .................28 

          F: Illinois Medicaid Fraud Control Unit Organization Chart .......29 

          G: Point Estimates and 95-Percent Confidence Intervals Based 

          on Our Reviews of Case Files........................................................30 

          H: Unit Comments ........................................................................31 

Acknowledgments......................................................................................34 

                   OBJECTIVE
                   To conduct an onsite review of the Illinois State Medicaid Fraud Control Unit
                   (MFCU or Unit).

                   BACKGROUND
                   The mission of the State MFCUs, as established by Federal statute, is to
                   investigate fraud and patient abuse and neglect by Medicaid providers and to
                   prosecute it under State law.1 Under the Medicaid statute, each State must
                   maintain a certified Unit, unless the Secretary of Health and Human Services
                   determines that operation of a Unit would not be cost-effective because
                   (1) minimal Medicaid fraud exists in that State, and (2) the State has other,
                   adequate safeguards to protect Medicaid beneficiaries from abuse and
                   neglect.2 Currently, 49 States and the District of Columbia (States) have
                   created such Units.3 In Federal fiscal year (FY) 2012, combined Federal and
                   State grant expenditures for the Units totaled $217.3 million, and Units
                   employed 1,901 individuals.4
                   Units are required to have either Statewide authority to prosecute cases or
                   formal procedures to refer suspected criminal violations to an office with
                   such authority.5 Units must be located in the State Attorney General’s office
                   or another State government office with statewide prosecutorial authority, or
                   operate under a formal arrangement with the State Attorney General’s office.6




                   1
                     Social Security Act (SSA) § 1903(q)(3).

                   2
                     SSA §§ 1902(a)(61). Regulations at 42 CFR § 1007.11(b)(1) add that the Unit’s 

                   responsibilities may include reviewing complaints of misappropriation of patients’ private 

                   funds in residential health care facilities. 

                   3
                     North Dakota and the territories of American Samoa, Guam, the Northern Mariana Islands, 

                   Puerto Rico, and the U.S. Virgin Islands have not established Units. 

                   4
                     FY references in this report are based on the Federal FY (October 1 through September 30). 

                   5
                     SSA § 1903(q)(1).

                   6
                     Ibid. 59 Fed. Reg. 49080 (Sept. 26, 1994). Accessed at http://oig.hhs.gov on

                   November 22, 2011. Note that the Office of Inspector General (OIG) published revised 

                   performance standards on June 1, 2012. (See 77 Fed. Reg. 32645.) The standards referred

                   to in this report are those from 1994, which were in effect at the time of our review. 



Illinois State Medicaid Fraud Control Unit: 2012 Onsite Review (OEI-07-12-00510)                              1
                   In 44 States the Units are located within offices of State Attorneys General;
                   in Illinois and the remaining 5 States, the Units are located in other State
                   agencies.7, 8 Generally, Units within other State agencies must refer cases to
                   other offices with prosecutorial authority, such as an Attorney General or
                   State’s Attorney.9 See Appendix A for the authorized structures for
                   organizing a State MFCU.
                   To carry out its duties and responsibilities in an effective and efficient
                   manner, each Unit must employ an interdisciplinary staff that consists of at
                   least an investigator, an auditor, and an attorney.10 Unit staff review
                   complaints provided by the State Medicaid agency and other sources to
                   determine their potential for criminal prosecution. In FY 2012, the 50 Units
                   collectively reported 1,337 convictions and 823 civil settlements or
                   judgments.11 That year, the Units reported recoveries of approximately
                   $2.9 billion.12
                   Each Unit must be a single, identifiable entity of the State government,
                   distinct from the State Medicaid agency, and each Unit must develop a
                   formal agreement—i.e., a Memorandum of Understanding (MOU)—that
                   describes the Unit’s relationship with that agency.13
                   Oversight of the MFCU Program
                   The Secretary of Health and Human Services delegated to OIG the authority to
                   annually certify the Units and to administer grant awards to reimburse States
                   for a percentage of their costs of operating certified Units.14 All Units are
                   currently funded by the Federal Government on a 75-percent matching basis,
                   with the States contributing the remaining 25 percent.15 To receive Federal

                   7
                     The Units share responsibility for protecting the integrity of the Medicaid program with the
                   section of the State Medicaid agency that functions as the Program Integrity Unit. Some
                   States also employ a Medicaid Inspector General who conducts and coordinates fraud, waste,
                   and abuse activities for the State agency.
                   8
                     In Connecticut, the Unit is located within the Chief State’s Attorney’s office, which has
                   statewide prosecutorial authority. In West Virginia and the District of Columbia, the Unit is
                   located within the Inspector General’s office. In Tennessee, the Unit is located in the Bureau
                   of Investigation, and in Iowa, it is located in the Department of Inspections and Appeals.
                   For each of these five Units, the Unit attorneys are located within the same organizational
                   component as the Unit itself, according to the information these States gave OIG.
                   9
                     SSA § 1903(q).

                   10
                      SSA § 1903(q)(6) and 42 CFR § 1007.13.

                   11
                      OIG, State Medicaid Fraud Control Units Fiscal Year 2012 Grant Expenditures and 

                   Statistics. Accessed at http://oig.hhs.gov/fraud/medicaid-fraud-control-units-mfcu/ on

                   March 7, 2013. 

                   12
                      Ibid. 

                   13
                      SSA § 1903(q)(2); 42 CFR §§ 1007.5 and 1007.9(d).

                   14
                      The portion of funds reimbursed to States by the Federal government for its share of

                   expenditures for the Federal Medicaid program, including the MFCUs, is called Federal

                   Financial Participation (FFP). 

                   15
                      SSA § 1903(a)(6)(B).


Illinois State Medicaid Fraud Control Unit: 2012 Onsite Review (OEI-07-12-00510)                               2
                   reimbursement, each Unit must submit an application to OIG.16 OIG reviews
                   the application and notifies the Unit of its approval and certification. Approval
                   and certification are for a 1-year period; the Unit must be recertified each year
                   thereafter.17
                   Under the Medicaid statute, States must operate Units that effectively carry out
                   their statutory functions and meet program requirements.18 OIG developed and
                   issued 12 performance standards to define the criteria it applies in assessing
                   whether a Unit is effectively carrying out statutory functions and meeting
                   program requirements.19 Examples of criteria include maintaining an adequate
                   caseload through referrals from several sources, maintaining an annual training
                   plan for all professional disciplines (i.e., attorneys, investigators, and auditors),
                   and establishing policy and procedure manuals for the Unit’s operations. See
                   Appendix B for a complete list of the performance standards.
                   Illinois State MFCU
                   The Medicaid Fraud Control Bureau in Illinois operates as a division of the
                   Illinois State Police (ISP) and acts as the State MFCU. At the time of our
                   review, the Unit’s 63 employees were located in two regions: the Northern
                   and Southern commands.20, 21 The Unit conforms to the ISP command
                   structure. The Unit director is located in Springfield, and holds the rank of
                   captain. The Northern and Southern command supervisors hold the rank of
                   lieutenant. First-line supervisors hold the rank of master sergeant and report
                   to a lieutenant. Investigators, auditors, and support staff are supervised
                   within this structure.
                   The Unit employs investigators and auditors, but does not directly employ
                   attorneys. Rather, the Unit has an MOU, dated March 14, 2005, establishing
                   a formal working relationship with the Illinois Office of the Attorney
                   General. Under the terms of the MOU, the attorneys are employees of the
                   Attorney General’s office and are supervised by that office, although they are
                   assigned to work with the Unit. Illinois is the only MFCU organized in this
                   manner. (See Appendix F for the Unit’s organization chart.)


                   16
                      42 CFR § 1007.15(a). 

                   17
                      42 CFR § 1007.15(b) and (c). 

                   18
                      SSA § 1902(a)(61).

                   19
                      59 Fed. Reg. 49080 (Sept. 26, 1994). Accessed at http://www.oig.hhs.gov on

                   November 22, 2011. OIG published revised performance standards on June 1, 2012.

                   (see 77 Fed. Reg. 32645.) The standards referred to in this report are the 1994 standards,

                   which were in effect during the review period of FYs 2009–2011. 

                   20
                      The Northern command staff work from Tinley Park, Sterling, East Moline, and 

                   Des Plaines, and the Southern command staff work from the State capital of Springfield and

                   the cities of Collinsville, DuQuoin, Effingham, and Mattoon. 

                   21
                      OIG analysis of the 2012 Illinois Recertification Questionnaire to MFCU Director –
                   Review Period April 1, 2011, Through March 31, 2012.


Illinois State Medicaid Fraud Control Unit: 2012 Onsite Review (OEI-07-12-00510)                             3
                   The Unit refers a case for prosecution depending on whether the county in
                   which the case is to be prosecuted is located in the Northern, Central, or
                   Southern Districts of Illinois. A case within the venue of the U.S. District
                   Court, Northern District of Illinois, is referred for prosecution to the Attorney
                   General’s office. The Attorney General’s office may prosecute the case, or
                   permit the MFCU to refer the case to another prosecuting authority. A case
                   referred for prosecution within the Central District of Illinois is referred to
                   the Central Illinois Healthcare Fraud Task Force (and thereby to the Attorney
                   General), to determine the appropriate prosecuting authority. Finally, the
                   Unit director, in consultation with the Chief MFCU Prosecutor, has the
                   discretion to determine the appropriate prosecuting authority for a case
                   within the Southern District of Illinois.
                   For FY 2011, the Illinois Unit was authorized to receive $9.2 million in
                   Federal funds, but actually expended just under $7.3 million in Federal funds,
                   and $2.4 million in State matching funds.22 Total combined Federal and State
                   Medicaid expenditures in the State of Illinois increased from $13 billion in
                   FY 2009 to $13.6 billion in FY 2011.23
                   For FYs 2009 through 2011, the Unit received an average of 1,628 referrals
                   per year from all sources. The Illinois Department of Public Health (DPH),
                   the State agency that regulates, licenses, and inspects nursing homes in
                   Illinois, refers the majority of complaints that the Unit receives. DPH
                   operates the Central Complaint Registry, a 24-hour hotline that accepts
                   complaints of potential abuse, neglect, or exploitation occurring in health
                   care facilities, as well as reports from consumers and the public. For
                   FYs 2009 through 2011, the Unit received an average of 1,401 complaints
                   per year from DPH.
                   The Illinois Department of Healthcare and Family Services (HFS), the State
                   Medicaid agency, reported referring only a couple of cases per month to the
                   Unit. Additional referral sources include OIG, the ISP website, other State
                   agencies, and concerned citizens.
                   Upon receipt of a referral, a lieutenant determines whether the facts of the
                   complaint merit opening a case. Once a case is opened, the lieutenant
                   assigns the case to the appropriate master sergeant, who assigns the case to
                   an investigator. The terms of the MOU with the Attorney General’s office
                   requires the Unit director to ensure that the assigned attorneys have the
                   opportunity to fully participate in all investigations. Once the investigation is
                   concluded, the Unit refers the case to the Attorney General’s office or


                   22
                     OIG analysis of State form SF-425 for FY 2011. 

                   23
                     Medicaid Fraud Control Units FY 2011 Statistical Chart. Accessed at http://oig.hhs.gov

                   on January 9, 2013. 



Illinois State Medicaid Fraud Control Unit: 2012 Onsite Review (OEI-07-12-00510)                               4
                   another prosecutorial authority, such as a State’s Attorney or one of the three
                   U.S. Attorneys for Illinois who will determine the potential for prosecution.
                   Previous Review
                   In 2010, OIG conducted an onsite review of the Illinois MFCU and found that
                   the Unit: (1) expended grant resources to investigate non-Medicaid-related
                   financial exploitation allegations; (2) employed investigators who lacked
                   knowledge of the policies and procedures manual; (3) maintained an inadequate
                   case management and tracking system; (4) failed to perform regularly
                   scheduled supervisory case reviews; (5) lacked staff with extensive
                   Medicaid-related investigative experience; and (6) experienced frequent
                   turnover in the Unit director position.
                   In the 2010 review, OIG recommended that the Unit (1) contact OIG for
                   guidance when clarification is required in determining whether a case falls
                   within the parameters of 42 CFR § 1007.11(b); (2) provide all investigators
                   with a copy of the operations manual; (3) continue to work with the
                   Information Technology staff to obtain and implement an upgraded case
                   management and tracking system; (4) conduct regularly scheduled supervisory
                   reviews of case files every 30 days and regularly scheduled “command
                   reviews”—i.e., reviews by the command (second-line) supervisor and the Unit
                   director—of case files every 90 days;24 and (5) ensure that new investigators
                   continue to receive Medicaid-specific investigative training. OIG also
                   recommended that ISP senior management strive to maintain continuity of the
                   supervisory command structure.

                   METHODOLOGY
                   Our review covered the 3-year period of FYs 2009 through 2011. We
                   analyzed data from seven sources: (1) a review of policies and procedures
                   and documentation of the Unit’s operations, staffing, and caseload for
                   FYs 2009 through 2011; (2) a review of financial documentation for
                   FYs 2009 through 2011; (3) structured interviews with key stakeholders;
                   (4) a survey of Unit staff; (5) structured interviews with the Unit’s
                   management; (6) an onsite review of case files that were open in
                   FYs 2009 through 2011; and (7) an onsite review of Unit operations, to
                   include the Unit headquarters and offices located in the Northern and
                   Southern commands. If interview and survey respondents provided
                   information that fell outside our 3-year review period, we used it to explain
                   further the results of our analyses.


                   24
                      As noted on page 3, first-line supervisors hold the rank of master sergeant and report to
                   either the Northern or Southern command supervisor, who holds the rank of lieutenant. The
                   two command supervisors report to the Unit director, who holds the rank of captain.


Illinois State Medicaid Fraud Control Unit: 2012 Onsite Review (OEI-07-12-00510)                              5
                   We analyzed data from all seven sources to describe the caseload and assess
                   the performance of the Unit. We also analyzed the data to identify any
                   opportunities for improvement and any instances in which the Unit did not
                   fully meet the performance standards or was not operating in accordance
                   with laws, regulations, and policy transmittals.25
                   Data Collection and Analysis
                   Review of Unit Documentation. We reviewed policies, procedures, and
                   documentation of the Unit’s operations, staffing, and cases, including its
                   annual reports, quarterly statistical reports, and responses to recertification
                   questionnaires. We also reviewed the Unit’s policies and procedures
                   describing how it detects, investigates, and prosecutes Medicaid cases. We
                   collected data on the number of referrals received by the Unit and the number
                   of investigations opened and closed.
                   Review of Financial Documentation. We reviewed Unit policies and
                   procedures related to budgeting, accounting systems, cash management,
                   procurement, property, and personnel to evaluate internal controls and design
                   our tests for financial documentation. We reviewed the Unit’s claimed
                   $25.5 million ($19.1 million Federal share and $6.5 million State share) in
                   grant expenditures for FYs 2009 through 2011 to: (1) reconcile final
                   Financial Status Reports and the supporting documentation; (2) purposively
                   select and review transactions within direct cost categories to determine
                   whether costs were allowable; and (3) verify that no indirect costs were
                   reported during the period. We reviewed records from the Payment
                   Management System to identify, if any, unusual patterns of “drawn-down”
                   amounts (i.e., amounts withdrawn from the grant funds). Finally, we
                   reviewed revenue accounts to identify program income amounts.
                   Interviews With Key Stakeholders. We conducted structured interviews with
                   key stakeholders who were familiar with the operations of the Unit.
                   Specifically, we interviewed staff from the Office of the Illinois Attorney
                   General; the U.S. District Attorneys from the Northern, Central, and
                   Southern districts of Illinois; the Administrator of HFS’s Division of Medical
                   Programs; HFS’s Office of Inspector General (HFS OIG), which serves as
                   the State’s Program Integrity Unit; and management and staff from the
                   Illinois Office of the Long-Term Care Ombudsman and Department on
                   Aging. Additionally, we interviewed Special Agents from OIG’s Kansas
                   City and Chicago regional offices, who work regularly with the Unit. Each
                   of these interviews focused on the Unit’s interaction with external agencies.



                   25
                      All relevant regulations, statutes, and policy transmittals are available online at
                   http://oig.hhs.gov.


Illinois State Medicaid Fraud Control Unit: 2012 Onsite Review (OEI-07-12-00510)                            6
                   Survey of Unit Staff. In August 2012, we administered an electronic survey
                   of all nonmanagerial Unit staff. We requested and received responses from
                   each of the 47 nonmanagerial staff members, a 100-percent response rate.
                   Our questions focused on operations of the Unit, opportunities for
                   improvement, and practices that contributed to the effectiveness and
                   efficiency of Unit operations and/or performance. The survey also sought
                   information about the Unit’s compliance with applicable laws and
                   regulations.
                   Interviews With Unit Management and Staff. We conducted structured
                   interviews with the Unit director, the lieutenants, and the master sergeants.
                   We also met with the Unit’s chief auditor. We asked these individuals to
                   provide additional information to better illustrate the Unit’s operations,
                   identify opportunities for improvement, identify practices that contributed to
                   the effectiveness and efficiency of Unit operations and/or performance, and
                   clarify information obtained from other data sources.
                   Onsite Review of Case Files. We selected a simple random sample of
                   100 cases from the 1,286 cases that were open at some point during
                   FYs 2009 through 2011. We reviewed all files corresponding to these
                   sampled cases for documentation of supervisory approval for the opening of
                   cases, documentation of closing of cases (if applicable), documented
                   supervisory reviews of case files, and documented command reviews of case
                   files. From these 100 cases, we selected a further random sample of 50 cases
                   for a more in-depth review of selected issues, such as the timeliness of
                   investigations and case development.26 We projected the results of our
                   reviews of case files to the population of Unit cases. See Appendix C for the
                   distribution of cases from the population and sample.
                   Onsite Review of Unit Operations. During our September 2012 onsite visit,
                   we reviewed the Unit’s workspace and operations. Specifically, we visited
                   the Unit headquarters in the State Capital and selected Northern and Southern
                   command offices. We observed the Unit’s offices and meeting spaces,
                   security of data and case files, location of select equipment, and the general
                   functioning of the Unit.
                   Standards
                   This study was conducted in accordance with the Quality Standards for
                   Inspection and Evaluation issued by the Council of the Inspectors General on
                   Integrity and Efficiency.




                   26
                        We excluded from our analysis one case improperly coded as being related to Medicaid.


Illinois State Medicaid Fraud Control Unit: 2012 Onsite Review (OEI-07-12-00510)                                7
                   FINDINGS
                   For FYs 2009 through 2011, the Unit reported combined
                   civil and criminal recoveries of nearly $141 million and
                   97 convictions
                   The Unit reported total combined criminal and civil recoveries of nearly
                   $141 million for FYs 2009 through 2011. Recoveries increased from
                   $23 million in FY 2009 to $70 million in FY 2010 and declined to
                   $48 million in FY 2011. Settlements for “global” (i.e., multi-State) cases
                   accounted for $124 million of the total recoveries but only 33 of the Unit’s
                   1,286 cases over the 3-year period. Refer to Table 1 below for details
                   regarding criminal and civil recoveries.27
                   During the review period, the Unit closed 967 investigations and referred
                   218 cases for prosecution. Prosecution outcomes include 133 individuals
                   charged, 97 criminal convictions, 11 dismissals, and 6 acquittals.28 See
                   Appendix D for details on investigations opened and closed by provider
                   category for FYs 2009 through 2011.
                   Table 1: Illinois MFCU Criminal and Civil Recoveries, FYs 2009–2011

                     Type of                                                                                          Total
                                                    FY 2009               FY 2010              FY 2011
                     Recovery                                                                                    Recoveries

                     Criminal
                                                 $5,113,957              $655,124           $3,341,296            $9,110,417
                     Recoveries
                     Global
                                               $17,727,644*          $69,464,241           $44,464,326         $124,098,774
                     Recoveries

                     Non-Global
                                                   $341,620            $7,089,594             $126,240            $7,557,454
                     Civil Recoveries

                        Total
                                                $22,841,621          $70,119,365           $47,805,622         $140,766,645
                        Recoveries

                   Source: OIG review of Unit self-reported data and Quarterly Statistical Reports, FYs 2009–2011.

                   * The Unit believed that it was not required to report the Federal portion of global recoveries in 2009. The
                   Federal portion of the Unit’s global case recoveries was $29,098,445 in 2010 and $21,218,058 in 2011.



                   Referrals to the Unit decreased during the period of review
                   The Unit reported 2,362 referrals in FY 2009, 1,475 in FY 2010, and 1,042 in
                   FY 2011. DPH accounted for 90 percent of all referrals to the Unit in
                   FY 2009. The Unit director reported that many DPH referrals were
                   complaints related to food quality and similar issues outside the scope of the


                   27
                      “Global” cases are civil false-claims actions involving the U.S. Department of Justice and
                   other State MFCUs. The National Association of Medicaid Fraud Control Units facilitates
                   the settlement of global cases.
                   28
                      One individual was convicted in two different cases.


Illinois State Medicaid Fraud Control Unit: 2012 Onsite Review (OEI-07-12-00510)                                                  8
                   grant. The Unit director also reported that educating DPH about what
                   constitutes criminal abuse and neglect had decreased that agency’s
                   proportion of the Unit’s referrals from 90 percent in 2010 to 76 percent in
                   2011.
                   The Unit also reported a significant decline in referrals from HFS, which are
                   routed to the Unit through HFS OIG. HFS OIG provided 129 referrals in
                   FY 2009, 62 referrals in FY 2010, and 22 referrals in FY 2011. Unit and
                   HFS management, and the HFS Inspector General, who was newly appointed
                   in 2012, attributed the decline in referrals to “issues internal to OIG” that
                   existed prior to his appointment. Reportedly, as a result, many of the
                   referrals from HFS to HFS OIG were not forwarded to the Unit. The HFS
                   Inspector General is a former Unit attorney and has made positive efforts to
                   reestablish communication and referral processes between the two agencies.
                   See Appendix E for details on referrals received by provider category for
                   FYs 2009 through 2011.

                   The Unit’s organizational structure for its attorneys
                   conflicts with the MFCU certification standards, and
                   attorneys assigned to the Unit are ineligible for FFP
                   Our review found that all of the attorneys assigned to the Unit are employees
                   of the Attorney General’s office and are neither supervised by, nor report to,
                   the Unit director. This arrangement conflicts with the certification
                   requirements in section 1903(q)(6) of the Social Security Act and
                   implemented by OIG in 42 CFR § 1007.13. These certification standards
                   require Units to employ sufficient staff to effectively and efficiently carry out
                   its duties, including employing “[o]ne or more attorneys experienced in the
                   investigation or prosecution of civil fraud or criminal cases.”29 The current
                   arrangement, in which all the attorneys assigned to the MFCU are employed
                   by the Attorney General’s office, does not satisfy this requirement, nor does
                   it appear to satisfy the statutory definition of a MFCU as a single identifiable
                   entity of the State government under 1903(q).
                   Further, under 42 CFR § 1007.19(e)(4), FFP is not available for the
                   performance of a person other than a full-time employee of the Unit; Units
                   may only claim FFP for the costs of full-time professional employees. OIG
                   State Fraud Policy Transmittal 89-130 defines a full-time employee as “an
                   employee who (1) works exclusively on MFCU matters and (2) works under
                   the supervision and direction of the Unit.” The policy further states that if an
                   employee “performs duties under the direction of another State office, such

                   29
                    42 CFR § 1007.13(a)(1).

                   30
                     OIG State Fraud Policy Transmittal 89-1, Clarification of the Hiring of Full-time and

                   Part-time Employees, Jan. 13, 1989. Accessed at http://oig.hhs.gov on November 7, 2012. 



Illinois State Medicaid Fraud Control Unit: 2012 Onsite Review (OEI-07-12-00510)                               9
                   an employee would not be considered a full-time employee under the
                   program regulations.” The MOU between the Unit and the Attorney
                   General’s office supports the finding that Unit attorneys are employees of the
                   Attorney General’s office, and instructs that “The Attorney General will
                   assign eleven MFCU prosecutors who will be supervised by the Attorney
                   General with input from the Unit Director.”
                   In support of recertification by OIG in 2010, 2011, and 2012, the Unit
                   submitted organization charts that use a solid line to indicate a direct
                   reporting relationship between the Chief Attorney and the Unit director. See
                   Appendix F for the organization chart submitted by the Unit for the
                   2012 review. During our onsite review, we noted that attorneys report
                   directly to the Attorney General’s office and learned that the Unit director
                   does not provide input on the supervision or performance of the attorneys.
                   Further, the director does not directly manage the attorneys and may be
                   unable to ensure that they work full-time on MFCU cases. Our review,
                   however, found no evidence to suggest that the attorneys work on activities
                   not eligible for FFP.

                   With the exception of a lack of compliance with
                   certification standards and the full-time employment
                   rule, our review of financial documentation found no
                   deficiencies in the Unit’s fiscal control of its resources
                   According to Performance Standard 11, the Unit should exercise proper
                   fiscal control over the Unit’s resources. Although the Unit was not in
                   compliance with certification standards or the full-time employment rule (as
                   addressed in the previous finding), the Unit’s expenditures claims for
                   FYs 2009 through 2011 represented allowable, allocable, and reasonable
                   costs in accordance with applicable Federal regulations. In addition, the Unit
                   maintained adequate internal controls relating to accounting, budgeting,
                   personnel, procurement, property, and equipment.

                   The Unit did not report to OIG the identities of
                   56 convicted providers for the purpose of program
                   exclusion
                   According to Performance Standard 8(d), when a convicted provider is
                   sentenced, the Unit should send a referral letter to OIG “within 30 days or
                   other reasonable time period” for the purpose of excluding that provider from
                   Federal health care programs. The Illinois Unit failed to report 56 of
                   97 (58 percent) individuals convicted of fraud, abuse, or neglect. Sentencing
                   for these 56 individuals occurred from 12 months to 47 months prior to our
                   onsite review. Failure to report convicted providers in a timely manner to
                   OIG for program exclusion enables those providers to continue billing


Illinois State Medicaid Fraud Control Unit: 2012 Onsite Review (OEI-07-12-00510)               10
                   Medicaid and Medicare and/or to receive other Federal grants and contracts.
                   Providers convicted of health care fraud and patient abuse remain a threat to
                   potential victims.
                   Subsequent to the completion of our onsite review, the Unit director notified
                   the review team that documentation of the convictions previously unreported
                   for exclusion purposes had been submitted to OIG as of December 2012.
                   The Unit director stated that future exclusion reports will be forwarded to
                   OIG.
                   Failure to report provider convictions to OIG for the purpose of
                   program exclusion resulted in a loss of more than $20,000 to the
                   Medicaid program
                   Medicaid claims data shows that a single convicted provider, who had not
                   been reported to OIG for the purpose of program exclusion, received nearly
                   $20,630 from the Medicaid program during the period of our review. The
                   provider was sentenced on May 5, 2009, but received payments for claims
                   for attendant care services between August 5, 2009, and December 12, 2012
                   (the most recent data available at the time of our review).

                   The Unit’s MOU with the State Medicaid agency does not
                   reflect current requirements
                   According to Performance Standard 10, the Unit should periodically review
                   its MOU with the State Medicaid agency and seek amendments, as
                   necessary, to ensure it reflects current law and practice. The current
                   operating MOU—which has an effective date of November 5, 2007—lacks
                   reference to the State False Claims Acts31, 32 and does not include payment
                   suspension provisions for providers who are subject to an ongoing
                   investigation related to credible allegations of fraud.33

                   Unit case files lacked supervisory approval and
                   documentation of reviews of case files
                   Performance Standard 6 states that the Unit should have a continuous case
                   flow and cases should be completed in a reasonable time. As a part of this
                   effort, managers should approve the opening and closing of cases and
                   document any supervisory reviews in the case file. Ten percent of opening
                   investigations and 4 percent of closed cases lacked evidence of documented


                   31
                      305 Illinois Compiled Statutes (ILCS) 5 Illinois Public Aid Code §§ 8A-3 and 8A-7.
                   Accessed at http://www.ilga.gov on December 10, 2012. 

                   32
                      740 ILCS 175 Illinois False Claims Act § 4(a) Civil actions for false claims. Accessed at 

                   http://www.ilga.gov on December 10, 2012. 

                   33
                      42 CFR §§ 455.23 and 1007.9(e)(1).


Illinois State Medicaid Fraud Control Unit: 2012 Onsite Review (OEI-07-12-00510)                              11
                   supervisory approval. Our 2010 onsite review also noted that the Unit lacked
                   appropriate documentation of reviews of case files.
                   Performance Standard 6 also states that supervisory reviews should be
                   conducted periodically and noted in the case file. The Unit conducts two
                   types of supervisory reviews: “supervisory” review (by a first-line
                   supervisor, i.e., a master sergeant) and “command” review (by a second-line
                   supervisor—i.e., the “command” supervisor, who is a lieutenant—and the
                   Unit director, who is a captain). The Unit’s policy is to conduct a
                   supervisory review of case files every 30 days on all open cases, and to
                   conduct a command review of case files every 90 days on all open cases.
                   Sixty percent of case files lacked documentation of supervisory review and
                   34 percent lacked documentation of command review.34 We assessed
                   whether supervisory and command reviews of case files occurred during the
                   tenure of the new director (i.e., 2012)—although this timeframe was outside
                   of our review period—and found that all required reviews were conducted
                   for the sampled cases. See Appendix G for sample sizes and 95-percent
                   confidence intervals associated with point estimates.

                   The Unit investigated three cases in our sample
                   unrelated to Medicaid and one case did not follow
                   prosecution referral protocol
                   We identified investigations that involved a missing iPod, and a physician
                   alleging that she had not been paid by a group practice that employed her.
                   These do not appear to be Medicaid cases. Another case in our selected
                   sample involved a pair of stolen motorcycles; however, the Unit director
                   stated that the case had been mistakenly archived as a MFCU case in an
                   administrative error and had not been investigated by the Unit. Finally, we
                   noted one investigation in which the Unit referred a case within the Central
                   District to a State’s Attorney for prosecution that, after the referral was
                   declined, was forwarded to the Attorney General’s office. The MOU
                   between the agencies requires that cases in the Central District are to be
                   referred to the Healthcare Fraud Task Force first.

                   The Unit’s director and management team reported the
                   case management and tracking system is inadequate
                   According to Performance Standard 3, the Unit should establish an adequate,
                   computerized case management and tracking system. During our surveys of
                   Unit staff and interviews with management, the Unit director reported a lack


                   34
                     For the purposes of this report, supervisory approval to open and close a case does not
                   constitute a review of the case file. Periodic supervisory review indicates that a supervisor
                   reviewed a case more than once between the opening and closing of the case.


Illinois State Medicaid Fraud Control Unit: 2012 Onsite Review (OEI-07-12-00510)                               12
                   of confidence in the case management and tracking system. Other Unit
                   managers reported that the system is “inadequate” and “loses information,”
                   requiring staff to reenter the data from archived sources. Results from our
                   staff survey similarly revealed responses that indicated the system is “old” or
                   “outdated,” “loses information,” and is not user friendly.
                   During our onsite review, we assessed the system and found that the variable
                   field for tracking case reviews was little more than an open text field. Issues
                   with the case management and tracking system remain an unresolved finding
                   from our 2010 onsite review.

                   Key stakeholders reported a lack of communication and
                   cooperation from the Unit’s Northern command
                   According to Performance Standard 8, the Unit will cooperate with the OIG
                   and other Federal agencies, whenever appropriate and consistent with its
                   mission, in the investigation and prosecution of health care fraud. Our
                   interviews with key stakeholders revealed that the Unit has developed an
                   effective relationship with the Office of the Long-Term Ombudsman.
                   However, room exists for improved communication and cooperation with
                   other external stakeholders.
                   Stakeholders who primarily interacted with the Northern command offices
                   reported that improved communication and more interagency cooperation
                   would benefit all parties. The U.S. Attorney for the Northern District of
                   Illinois expressed concern that the Northern command disregarded input on
                   cases, which impeded interagency cooperation. We also learned that
                   although the Unit management has a “cordial relationship” with OIG’s Office
                   of Investigations staff, high Unit staff turnover and a lack of regular dialogue
                   between the agencies impeded productivity. The Special Agent in Charge for
                   OIG’s Chicago region and the U.S. Attorney for the Northern District of
                   Illinois expressed an interest in improving their working relationships with
                   the Unit.
                   In contrast, stakeholders working with the Southern command offices were
                   complimentary of the Unit and reported effective working relationships with
                   staff. The Assistant Special Agent in Charge of OIG’s St. Louis field office
                   works regularly with Unit staff, and reported that his office maintains “great
                   communication and enjoys a close working relationship” with the Southern
                   command. He also noted that the Unit routinely participates in search
                   warrants and assists with cases as needed. Further, the U.S. Attorney’s
                   Office for the Southern District of Illinois described its relationship with the
                   Unit as “excellent and productive.”




Illinois State Medicaid Fraud Control Unit: 2012 Onsite Review (OEI-07-12-00510)                 13
                   Unit training plans did not identify a minimum number
                   of required training hours for each professional
                   discipline
                   According to Performance Standard 12, the Unit should maintain an annual
                   training plan for all professional disciplines that includes a minimum number
                   of hours of training required for each professional discipline. The Unit had
                   training plans and made funds available to staff for training. However, the
                   training plan did not include a minimum number of training hours for each
                   professional discipline. All staff reported that the Unit provided them with
                   training opportunities and that the training they received aided the mission of
                   the Unit.35

                   Other observations: Effects of Unit director turnover
                   and drug diversion awareness training
                   In addition to assessing the Unit’s compliance with relevant statutes and
                   regulations and its performance consistent with each of the performance
                   standards, we made two observations involving a potential deficiency and a
                   noteworthy practice that might be of interest to other Units.
                   Unit director turnover
                   Between October 2008 and September 2011, the Illinois Unit employed six
                   acting and/or permanent directors. The current director was appointed in
                   December 2011. Twenty percent of the respondents to the Unit staff survey
                   mentioned that the frequency of Unit director turnover is problematic.
                   Although the length of tenure of Unit directors is not specified in the
                   performance standards, a high turnover rate with directors may have a
                   detrimental effect on the effectiveness, efficiency, and morale of a Unit.
                   Drug diversion awareness training
                   The Unit has an initiative to provide nursing home staff with drug diversion
                   awareness training to reduce instances of caregivers diverting residents’
                   prescription drugs for personal use or sale. Unit management reported that
                   investigators regularly visit nursing homes to inspect logbooks and train staff
                   to identify dispensing irregularities. Investigators “encourage placement of a
                   three-digit numeral behind the names of staff that dispenses drugs, to identify
                   the person.” The practice has reportedly resulted in a drop in diversion cases


                   35
                      Although we reviewed training records, we did not evaluate the staff’s professional
                   qualifications. Rather, we applied the performance standards to evaluate whether the Unit
                   maintained a formal training plan for each professional discipline and assessed training
                   opportunities specific to Unit operations. We recognize that attorneys, investigators, and
                   auditors receive professional and law enforcement training, and that the lack of an annual
                   training plan does not suggest that professional staff are unqualified.


Illinois State Medicaid Fraud Control Unit: 2012 Onsite Review (OEI-07-12-00510)                                14
                   within nursing homes because “[w]hen you start to educate the
                   administrators, they’re able to pick up problems.”




Illinois State Medicaid Fraud Control Unit: 2012 Onsite Review (OEI-07-12-00510)   15
                   CONCLUSION AND RECOMMENDATIONS
                   For FYs 2009 through 2011, the Unit reported combined civil and criminal
                   recoveries of nearly $141 million, of which $124 million represented global
                   case recoveries. The Unit referred 218 cases for prosecution, which resulted
                   in 97 convictions, 11 dismissals, and 6 acquittals.
                   The Unit director reported that educating DPH has improved the quality of its
                   referrals and decreased markedly the number of referrals unrelated to the
                   agency’s mission. Additionally, numerous HFS referrals routed through HFS
                   OIG were not forwarded to the Unit.
                   The organizational charts submitted in support of the Unit’s 2010 and
                   2012 onsite review indicated that attorneys assigned to the Unit were
                   supervised by the Unit director. However, our review found that the Unit
                   director neither supervises the attorneys nor contributes to their performance
                   appraisals. Thus, the Unit does not meet the certification staffing
                   requirements, nor do the attorneys meet the definition of the full-time
                   employee rule. FFP is not available for the compensation of persons other
                   than full-time employees of the Unit.
                   Because the Unit’s attorney structure for its attorneys is not compliant with
                   the certification staffing requirements and the full-time employment rule for
                   attorneys, the Unit must submit a corrective action plan due within
                   30 calendar days from the date of the final report issuance to resolve
                   noncompliance, and work with OIG’s MFCU oversight division to ensure
                   certification requirements are met and that that FFP is available in the future
                   for attorneys.
                   For FYs 2009 through 2011, the Unit did not report the identities of all
                   convicted providers to OIG for the purpose of program exclusion, which
                   resulted in a loss of approximately $20,000 to the Medicaid program. The
                   Unit’s cases lacked documentation of supervisory reviews and detailed
                   investigatory interview notes. The Unit’s current MOU with the State
                   Medicaid agency failed to comply with all Federal requirements. We also
                   noted during our review of case files that the Unit opened cases that were
                   unrelated to Medicaid. In addition, Unit management and staff reported that
                   the computerized case management and tracking system remains inadequate,
                   an issue we also noted during our 2010 Unit review. We also found that the
                   Northern command’s communication and cooperation with key stakeholders
                   requires improvement, and that the Unit’s staff training plan did not identify
                   the number of training hours to be required for each professional discipline.
                   External stakeholders and Unit staff mentioned the turnover rate within the
                   director’s office impeding productivity. Although the length of tenure of
                   Unit directors is not specified in the performance standards, OIG has



Illinois State Medicaid Fraud Control Unit: 2012 Onsite Review (OEI-07-12-00510)                 16
                   concerns that this issue affects the effectiveness and efficiency of Unit
                   operations.
                   Finally, Unit supervisors reported that providing nursing home staff with
                   drug diversion awareness and logbook inspection trainings has been
                   beneficial to Unit operations, and reduced the number of drug diversion
                   crimes committed.
                   We recommend that the Illinois Unit:
                   Submit a Corrective Action Plan to Address Noncompliance With
                   Certification Requirements
                   Section 1903(q)(6) of the Act, 42 CFR § 1007.13, and OIG State Fraud
                   Policy Transmittal 89-1 require the Unit to employ and supervise full-time
                   professional staff, including at least one Unit attorney. Because the Unit’s
                   attorney structure is not compliant with the certification staffing requirements
                   OIG may be unable to recertify the Unit in the absence of a reorganization of
                   the Unit or other acceptable remedy.
                   Submit a Corrective Action Plan to Address Noncompliance With
                   the Full-Time Employment Rule for Attorneys
                   Section 1903(q)(6) of the Act, 42 CFR § 1007.13, and OIG State Fraud
                   Policy Transmittal 89-1 require the Unit to employ and supervise full-time
                   professional staff. Because the Unit’s attorney structure is not compliant
                   with the full-time employment rule, FFP is not available for attorneys who
                   are employed and supervised by the Attorney General’s office.
                   Note: OIG’s expectation is that the Unit submit a single Corrective Action
                   Plan that addresses the issues identified above. This Corrective Action Plan
                   is due within 30 calendar days from the date the final report is issued.
                   We also recommend that the Illinois Unit:
                   Refer Individuals for the Purpose of Program Exclusion to OIG
                   Within the Appropriate Timeframe
                   The Unit should make certain that individuals convicted of fraud, abuse, and
                   neglect are reported within 30 days of their sentencing, in accordance with
                   Performance Standard 8(d) of the revised performance standards.
                   Update the Unit’s MOU With the State Medicaid Agency to
                   Comply With Federal Grant Requirements
                   The Unit should update the MOU with HFS to include language regarding
                   the Illinois False Claims Acts and provider payment suspension provisions.
                   Ensure That All Case Files Contain Opening and Closing
                   Investigative Memoranda, Documented Supervisory Approvals,
                   and Documented Periodic Supervisory Reviews
                   Ensure Referrals for Prosecution Follow Established Protocol


Illinois State Medicaid Fraud Control Unit: 2012 Onsite Review (OEI-07-12-00510)                17
                   Ensure Investigations Are Related to Medicaid and Repay Grant
                   Funds for Ineligible Cases
                   The Unit should not investigate cases outside the scope of the Federal grant
                   and should work with OIG to identify the staff hours and expenditures
                   associated with the ineligible cases to repay the Federal grant funds.
                   Upgrade the Unit’s Case Management and Tracking System
                   The Unit should implement a case management and tracking system that is
                   not vulnerable to the loss of data and is user friendly.
                   Improve Communication and Cooperation With Key Stakeholders
                   The Unit should strive to improve outreach efforts and communication
                   among key stakeholders such as HFS, HFS OIG, OIG’s Chicago region, and
                   the U.S. Attorney’s Office for the Northern District of Illinois.
                   Establish Training Hour Requirements for Professional
                   Disciplines
                   The Unit should include a minimum number of training hours for each
                   professional discipline in its training plan.

                   UNIT COMMENTS AND OFFICE OF INSPECTOR GENERAL
                   RESPONSE
                   The Illinois Unit concurred with six recommendations and concurred in part
                   with four recommendations. Regarding our first and second
                   recommendations involving organizational structure, the Unit concurred in
                   part. The Unit agreed that there appears to be an issue with the attorneys’
                   reporting structure but that attorneys assigned to the Unit have been
                   dedicated full-time to Medicaid fraud prosecution. We do not dispute that the
                   attorneys appear to be dedicated full-time to Medicaid fraud and other cases
                   within the Unit’s authority. However, the Unit director does not supervise or
                   manage the case work of the attorneys and the Unit thus does not comply
                   with the rule that employees be full-time employees that report to and are
                   supervised by the Unit. The Illinois State Police and Illinois Attorney
                   General’s Office are working to revise their Memorandum of Understanding
                   to resolve the compliance issue. A corrective action plan will be provided to
                   OIG in response to the final report.
                   Regarding our third recommendation involving reporting of conviction
                   information, the Unit concurred. The Unit submitted all documentation of
                   convictions for the period of review for the purposes of program exclusion by
                   December 2012. A procedure has now been put in place to ensure the
                   documentation is submitted within 30 days of the sentencing date.
                   Regarding our fourth recommendation about the MOU, the Unit concurred.
                   The Unit is currently rewriting the MOU with the State Medicaid agency to


Illinois State Medicaid Fraud Control Unit: 2012 Onsite Review (OEI-07-12-00510)              18
                   address the issues of provider payment suspension and make mention of the
                   Illinois False Claims Act. The Unit anticipates that this will be completed by
                   October 1, 2013.
                   Regarding our fifth recommendation about case file documentation, the Unit
                   concurred in part. The Unit director asserts that all cases were opened and
                   closed as required but states that not all of these reports made it to the file in
                   the Records Bureau. The Unit director will make efforts to correct these
                   issues and ensure that supervisory and command case reviews are properly
                   documented. The Unit will develop a checklist for case closures to ensure a
                   file is complete before it is forwarded to the Records Bureau.
                   Regarding our sixth recommendation about following established protocol,
                   the Unit concurred. The Unit is reviewing prosecution protocols to
                   standardize the process of referring cases for prosecution. This will be
                   addressed in the revised MOU with the Attorney General’s Office.
                   Regarding our seventh recommendation about ensuring investigations are
                   related to Medicaid, the Unit concurred. The Unit director asserts that all
                   cases were opened believing there was a Medicaid nexus; once it was clear
                   there was not, all investigations were promptly closed.
                   Regarding our eighth recommendation about the case management system,
                   the Unit concurred. Subsequent to our review, the Unit has conducted
                   research with various other Units to identify a viable system with
                   demonstrated capabilities. The Unit anticipates it will begin implementing a
                   new system by December 2013.
                   Regarding our ninth recommendation about communicating and cooperating
                   with key stakeholders, the Unit concurred in part. The Unit identified a
                   “sometimes-stressed relationship” with the U.S. Attorney’s Office in the
                   Northern District. The Unit will continue to reach out to Federal partners.
                   Regarding our tenth recommendation about establishing training hour
                   requirements, the Unit concurred. The Unit is revising its training policy to
                   include a minimum number of training hours for each professional discipline.
                   The Unit anticipates the policy will be completed within the next 30 days.
                   The full text of the Unit’s comments is provided in Appendix H.




Illinois State Medicaid Fraud Control Unit: 2012 Onsite Review (OEI-07-12-00510)                   19
                   APPENDIX A
                   Social Security Act
                   [SSA § 1903(q)(1)]

                   (q) For the purposes of this section, the term “State Medicaid fraud control
                   unit” means a single identifiable entity of the State government which the
                   Secretary certifies (and annually recertifies) as meeting the following
                   requirements:

                   (1) The entity:

                   (A) is a unit of the office of the State Attorney General or of another
                   department of State government which possesses statewide authority to
                   prosecute individuals for criminal violations,

                   (B) is in a State the constitution of which does not provide for the criminal
                   prosecution of individuals by a statewide authority and has formal
                   procedures, approved by the Secretary, that (i) assure its referral of suspected
                   criminal violations relating to the program under this title to the appropriate
                   authority or authorities in the State for prosecution and (ii) assure its
                   assistance of, and coordination with, such authority or authorities in such
                   prosecutions, or

                   (C) has a formal working relationship with the office of the State Attorney
                   General and has formal procedures (including procedures for its referral of
                   suspected criminal violations to such office) which are approved by the
                   Secretary and which provide effective coordination of activities between the
                   entity and such office with respect to the detection, investigation, and
                   prosecution of suspected criminal violations relating to the program under
                   this title.




Illinois State Medicaid Fraud Control Unit: 2012 Onsite Review (OEI-07-12-00510)                  20
                   APPENDIX B
                   Performance Standards for Medicaid Fraud Control Units36
                   [59 Fed. Reg. 49080, Sept. 26, 1994]
                   1. 	A Unit will be in conformance with all applicable statutes, regulations
                       and policy transmittals. In meeting this standard, the Unit must meet,
                       but is not limited to, the following requirements:
                        a.	 The Unit professional staff must consist of permanent employees
                            working full-time on Medicaid fraud and patient abuse matters.
                        b.	 The Unit must be separate and distinct from the single State Medicaid
                            agency.
                        c.	 The Unit must have prosecutorial authority or an approved formal
                            procedure for referring cases to a prosecutor.
                        d.	 The Unit must submit annual reports, with appropriate certifications,
                            on a timely basis.
                        e.	 The Unit must submit quarterly reports on a timely basis.
                        f.	 The Unit must comply with the Americans with Disabilities Act, the
                            Equal Employment opportunity requirements, the Drug Free
                            workplace requirements, Federal lobbying restrictions, and other such
                            rules that are made conditions of the grant.
                   2. 	A Unit should maintain staff levels in accordance with staffing
                       allocations approved in its budget. In meeting this standard, the
                       following performance indicators will be considered:
                        a.	 Does the Unit employ the number of staff that was included in the
                            Unit's budget as approved by the OIG [Office of Inspector General]?
                        b.	 Does the Unit employ the number of attorneys, auditors, and 

                            investigators that were approved in the Unit's budget? 

                        c.	 Does the Unit employ a reasonable size of professional staff in
                            relation to the State's total Medicaid program expenditures?
                        d.	 Are the Unit office locations established on a rational basis and are
                            such locations appropriately staffed?
                   3. 	A Unit should establish policies and procedures for its operations, and
                       maintain appropriate systems for case management and case
                       tracking. In meeting this standard, the following performance indicators
                       will be considered:

                   36
                      These performance standards were the ones in effect at the time of our review and precede
                   the performance standards published in June 2012.


Illinois State Medicaid Fraud Control Unit: 2012 Onsite Review (OEI-07-12-00510)                            21
                        a.	 Does the Unit have policy and procedure manuals?
                        b.	 Is an adequate, computerized case management and tracking system
                            in place?
                   4. 	A Unit should take steps to ensure that it maintains an adequate
                       workload through referrals from the single State agency and other
                       sources. In meeting this standard, the following performance indicators
                       will be considered:
                        a.	 Does the Unit work with the single State Medicaid agency to ensure
                            adequate fraud referrals?
                        b.	 Does the Unit work with other agencies to encourage fraud referrals?
                        c.	 Does the Unit generate any of its own fraud cases?
                        d.	 Does the Unit ensure that adequate referrals of patient abuse 

                            complaints are received from all sources? 

                   5. 	A Unit’s case mix, when possible, should cover all significant provider
                       types. In meeting this standard, the following performance indicators
                       will be considered:
                        a.	 Does the Unit seek to have a mix of cases among all types of 

                            providers in the State? 

                        b.	 Does the Unit seek to have a mix of Medicaid fraud and Medicaid
                            patient abuse cases?
                        c.	 Does the Unit seek to have a mix of cases that reflect the proportion
                            of Medicaid expenditures for particular provider groups?
                        d.	 Are there any special Unit initiatives targeting specific provider types
                            that affect case mix?
                        e.	 Does the Unit consider civil and administrative remedies when
                            appropriate?
                   6. 	A Unit should have a continuous case flow, and cases should be
                       completed in a reasonable time. In meeting this standard, the following
                       performance indicators will be considered:
                        a.	 Is each stage of an investigation and prosecution completed in an
                            appropriate time frame?
                        b.	 Are supervisors approving the opening and closing of investigations?
                        c.	 Are supervisory reviews conducted periodically and noted in the case
                            file?




Illinois State Medicaid Fraud Control Unit: 2012 Onsite Review (OEI-07-12-00510)                    22
                   7. 	A Unit should have a process for monitoring the outcome of cases. In
                       meeting this standard, the following performance indicators will be
                       considered:
                        a.	 The number, age, and type of cases in inventory.
                        b.	 The number of referrals to other agencies for prosecution.
                        c.	 The number of arrests and indictments.
                        d.	 The number of convictions.
                        e.	 The amount of overpayments identified.
                        f.	 The amount of fines and restitution ordered.
                        g.	 The amount of civil recoveries.
                        h.	 The numbers of administrative sanctions imposed.
                   8. 	A Unit will cooperate with the OIG and other Federal agencies,
                       whenever appropriate and consistent with its mission, in the
                       investigation and prosecution of health care fraud. In meeting this
                       standard, the following performance indicators will be considered:
                        a.	 Does the Unit communicate effectively with the OIG and other
                            Federal agencies in investigating or prosecuting health care fraud in
                            their State?
                        b.	 Does the Unit provide OIG regional management, and other Federal
                            agencies, where appropriate, with timely information concerning
                            significant actions in all cases being pursued by the Unit?
                        c.	 Does the Unit have an effective procedure for referring cases, when
                            appropriate, to Federal agencies for investigation and other action?
                        d.	 Does the Unit transmit to the OIG, for purposes of program
                            exclusions under section 1128 of the Social Security Act, reports of
                            convictions, and copies of Judgment and Sentence or other acceptable
                            documentation within 30 days or other reasonable time period?
                   9. 	A Unit should make statutory or programmatic recommendations,
                       when necessary, to the State government. In meeting this standard, the
                       following performance indicators will be considered:
                        a.	 Does the Unit recommend amendments to the enforcement provisions
                            of the State's statutes when necessary and appropriate to do so?
                        b.	 Does the Unit provide program recommendations to single State
                            agency when appropriate?
                        c.	 Does the Unit monitor actions taken by State legislature or State
                            Medicaid agency in response to recommendations?


Illinois State Medicaid Fraud Control Unit: 2012 Onsite Review (OEI-07-12-00510)                    23
                    10. 	A Unit should periodically review its memorandum of 

                         understanding (MOU) with the single State Medicaid agency and 

                         seek amendments, as necessary, to ensure it reflects current law

                         and practice. In meeting this standard, the following performance 

                         indicators will be considered:

                        a.	 Is the MOU more than 5 years old?
                        b.	 Does the MOU meet Federal legal requirements?
                        c.	 Does the MOU address cross-training with the fraud detection staff of
                            the State Medicaid agency?
                        d.	 Does the MOU address the Unit’s responsibility to make program
                            recommendations to the Medicaid agency and monitor actions taken
                            by the Medicaid agency concerning those recommendations?
                   11. 	The Unit director should exercise proper fiscal control over the Unit
                        resources. In meeting this standard, the following performance
                        indicators will be considered:
                        a.	 Does the Unit director receive on a timely basis copies of all fiscal
                            and administrative reports concerning Unit expenditures from the
                            State parent agency?
                        b.	 Does the Unit maintain an equipment inventory?
                        c.	 Does the Unit apply generally accepted accounting principles in its
                            control of Unit funding?
                   12. 	A Unit should maintain an annual training plan for all professional
                        disciplines. In meeting this standard, the following performance
                        indicators will be considered:
                        a.	 Does the Unit have a training plan in place and funds available to
                            fully implement the plan?
                        b.	 Does the Unit have a minimum number of hours training requirement
                            for each professional discipline, and does the staff comply with the
                            requirement?
                        c.	 Are continuing education standards met for professional staff?
                        d.	 Does the training undertaken by staff aid to the mission of the Unit?




Illinois State Medicaid Fraud Control Unit: 2012 Onsite Review (OEI-07-12-00510)                    24
                     APPENDIX C
                     Population and Sample Distribution of Case Files Open Any Time
                     During Fiscal Years 2009 Through 2011

                                                 Population           Population of Case         Sample Case           Sample Case Files
     Data Element Description
                                               of Case Files           Files (Percentage)               Files              (Percentage)

     Fraud—Civil (Open)                                      3                            0.2                   0                             0

     Fraud—Civil (Closed)                                   55                            4.3                   6                             6

     Fraud—Criminal (Open)                                115                             8.9                   8                             8

     Fraud—Criminal (Closed)                              306                           23.8                  24                              24

     Abuse—Civil (Open)                                      0                              0                   0                             0

     Abuse—Civil (Closed)                                    5                            0.4                   0                              0

     Abuse—Criminal (Open)                                  23                            1.8                   1                             1

     Abuse—Criminal (Closed)                              666                           51.8                  53                              53

     Patient Funds-—Civil (Open)                             0                              0                   0                             0

     Patient Funds—Civil (Closed)                            1                              0                   0                              0

     Patient Funds-—Criminal (Open)                         11                            0.9                   0                             0

     Patient Funds—Criminal (Closed)                      101                             7.9                   8                              8

       Total                                            1,286                            100                 100                          100

        Source: Office of Inspector General analysis of Illinois’ Medicaid Fraud Control Unit Quarterly Statistical Reports, FYs 2009–2011.




Illinois State Medicaid Fraud Control Unit: 2012 Onsite Review (OEI-07-12-00510)                                                          25
                       APPENDIX D
                       Investigations Opened and Closed By Provider Category for
                       Fiscal Years 2009 Through 2011
        Table D-1: Fraud Investigations

          Provider Category                   Fiscal Year (FY) 2009          FY 2010             FY 2011

          Facilities                          Opened       Closed      Opened      Closed   Opened    Closed

             Hospitals                                1           2            0        2        0              1

             Nursing Facilities                       1           1            2        3        2              0
             Other Long-Term Care
                                                      0           0            0        0        0              0
             Facilities
             Substance Abuse Treatment
                                                      0           0            0        0        1              0
             Centers
             Other                                    3           5            9        5        3              9

           Subtotal                                   5           8           11       10        6             10

          Practitioners                        Opened       Closed      Opened     Closed   Opened         Closed
             Doctors of Medicine or
                                                     15          15            9       14       12             21
             Osteopathy

             Dentists                                 8           5            5        5        2              4

             Podiatrists                              0           1            1        0        0              1

             Optometrists/Opticians                   2           0            1        1        3              3

             Counselors/Psychologists                 0           1            0        0        2              1

             Chiropractors                            0           1            1        0        1              1

             Other                                    0           0            1        1        0              0

           Subtotal                                  25          23           18       21       20             31

          Medical Support                      Opened       Closed      Opened     Closed   Opened         Closed

             Pharmacies                               1           7           10        5        2              4
             Pharmaceutical
                                                      0           2            9       10       16             16
             Manufacturers
             Durable Medical Equipment
                                                      1           2            2        0        3              3
             and/or Supplies
             Laboratories                             1           2            1        1        1              2

             Transportation Services                  4           7           12        3        9              5

             Home Health Care Agencies                0           3            1        2        1              2

             Home Health Care Aides                  15          23           33       28       63             31

             Nurses, Physician Assistants,
             Nurse Practitioners, Certified           1           1            0        0        3              0
             Nurse Aides

             Radiologists                             1           0            0        0        1              2

             Medical Support—Other                    1           0            0        0        2              1

           Subtotal                                  25          47           68       49       101            66




Illinois State Medicaid Fraud Control Unit: 2012 Onsite Review (OEI-07-12-00510)                               26
         Table D-1 (Continued): Fraud Investigations

          Program Related                          Opened         Closed        Opened         Closed     Opened             Closed

             Managed Care                                  0             0              1           0           0                 1

             Medicaid Program
                                                           4             2              3           3           3                 3
             Administration

             Billing Company                               0             0              0           0           0                 0

             Other                                         0             2              3           0           3                 0

           Subtotal                                        4             4              7           3            6                4

           Total Provider Categories                      59            82           104            83         133              111

        Source: Office of Inspector General (OIG) analysis of Unit Annual Reports, FYs 2009–2011.

        Table D-2: Patient Abuse, Neglect, and Funds Investigations

         Provider Category                        FY 2009                      FY 2010                   FY 2011


                                            Opened        Closed        Opened         Closed       Opened      Closed

            Nursing Facility                       94            87           227           198          217         214

            Other Long-Term Care                     0            0              1             7           0             3
            Nurses/Physician’s
            Assistant/Nurse
                                                   17            25             43           37           34          39
            Practitioner/
            Certified Nurse Aides
            Home Health Aides                        2            1              0             0           1             1

            Other                                  21            10             26           40           36          29

           Total                                  134           123           297           282          288         286

        Source: OIG analysis of Unit Annual Reports, FYs 2009–2011.




Illinois State Medicaid Fraud Control Unit: 2012 Onsite Review (OEI-07-12-00510)                                                 27
                       APPENDIX E
                       Medicaid Fraud Control Unit Referrals by Provider Category for
                       Fiscal Years 2009 Through 2011
                                      Fiscal Year (FY) 2009                             FY 2010                                     FY 2011
                                               Abuse                                      Abuse                                       Abuse
                                                             Patient                                     Patient                                Patient
  Referral Source               Fraud            and                        Fraud           and                        Fraud            and
                                                             Funds                                       Funds                                  Funds
                                              Neglect                                    Neglect                                     Neglect
  Medicaid Agency –
  PI/SURS*
  (Department of
  Healthcare and                     119              6             0           58               4              0           18             3         1
  Family Services,
  Office of Inspector
  General)
  Medicaid Agency –
  Other (Department                    6         2,129              3            2          1,256              12            3           780        13
  of Public Health)
  State Survey and
                                      0               0             0            0               0              0            0             0         0
  Certification

  Other State
                                     15               2             2           34               2              1           64             4         0
  Agencies

  Licensing Board                     0               1             0            1               5              0            1            1          0

  Law Enforcement                     3               1             6            9               4              6            2             7         1

  Office of Inspector
                                      7               1             0           15               1              0            9             0         1
  General

  Prosecutors                         6               3             1            1               2              1            3             2         3

  Providers                           1             13              6            2              17              7            6           26         11

  Provider
                                      1               0             0            0               0              0            0             1         0
  Associations

  Private Health
                                      0               0             0            0               0              0            3             0         0
  Insurer

  Long-Term Care
                                      0               0             1            1               0              3            0            0          5
  Ombudsman

  Adult Protective
                                      0               0             0            1               0              0            0             0         0
  Services

  Private Citizens                   11               3             3           15               6              2           25             7         7

  MFCU** Hotline                      3               1             1            1               0              0           20            6          3

  Other                               6               1             0            4               1              1            4             1         1

    Total                            178         2,161             23          144          1,298              33         158            838        46

     Annual Total                                              2,362                                       1,475                                 1,042

 * Program Integrity/Surveillance and Utilization Review Subsystem. 


 ** Medicaid Fraud Control Unit. 


 Source: Office of Inspector General analysis of Illinois’ Medicaid Fraud Control Unit Quarterly Statistical Reports, FYs 2009–2011. 





Illinois State Medicaid Fraud Control Unit: 2012 Onsite Review (OEI-07-12-00510)                                                           28
                   APPENDIX F
                   Illinois Medicaid Fraud Control Unit Organization Chart




Illinois State Medicaid Fraud Control Unit: 2012 Onsite Review (OEI-07-12-00510)   29
                      APPENDIX G
                      Point Estimates and 95-Percent Confidence Intervals Based on
                      Our Reviews of Case Files
                      We calculated confidence intervals for key data points for our reviews of
                      case files. The sample sizes, point estimates, and 95-percent confidence
                      intervals are given for the each of the following:
 Table F-1: Confidence Intervals for Case File Review Data

                                                          Sample
   Data Element Description                                                Point Estimate              95-Percent Confidence Interval
                                                            Size

   Case files missing supervisory approval
                                                                99                    10.1%                              5.6%–17.6%
   for the opening of investigations
   Case files missing documented
   supervisory approval for the closing of                      87                     3.5%                              1.1%–10.0%
   investigations
   Case files missing documented periodic
   supervisory reviews (30-day supervisory                      82                    59.8%                             49.1%–69.6%
   review of case file)
   Case files missing documented periodic
   supervisory reviews (90-day command                          99                    34.3%                             25.9%–44.0%
   review of case file)

  Source: Office of Inspector General Analysis of Illinois Medicaid Fraud Control Unit case files, 2012.




Illinois State Medicaid Fraud Control Unit: 2012 Onsite Review (OEI-07-12-00510)                                                        30
                   APPENDIX H
                   Unit Comments




Illinois State Medicaid Fraud Control Unit: 2012 Onsite Review (OEI-07-12-00510)   31
Illinois State Medicaid Fraud Control Unit: 2012 Onsite Review (OEI-07-12-00510)   32
               Mr. Stuart Wright                                                                                              Page 3
               May 28 , 2013

               reach out to our federal pm1ners.
                                                                                                                                              I
               Unit training plans did not identify a minimum number of required training hours for each professional
                                                                                                                                              I·
               discipline.

                            •      Establis h Training Hour Req uirements for Professional Disciplines.

               We concur. Our Unit is already revis ing its training policy to include a minimum number of training hours for each
               professional discipline. We anticipate that the policy will be completed within the next 30 days.

                         Thank you for taking the time to audit the lllinois MFCU and bringing these conce rns to my attention. Please
               feel tree to contact Captain Willi am Sheridan, MFC U Director, at 2171785-3321, with any further questions regard ing
               this review.

                                                                          Sincere ly,

                                                                           /S/
                                                                          Hiram Grau
                                                                          Director




Illi nois State Medicaid Fraud Control Unit: 2012 Onsite Review (OEI-07-12-00510)                                                        33
                   ACKNOWLEDGMENTS
                   This report was prepared under the direction of Brian T. Whitley, Acting
                   Regional Inspector General for Evaluation and Inspections in the Kansas City
                   regional office.
                   Other Office of Evaluation and Inspections staff who conducted the study
                   include Thomas Brannon, Michael J. Brown, Teresa Dailey, Matt DeFraga,
                   Julie Dusold Culbertson, and Brian T. Pattison. Office of Audit Services staff
                   who conducted the study include Tate Clark, Amy Erickson, and Angela
                   Wiser. Office of Investigations staff who conducted the study include Jason
                   Weinstock. Central office staff who provided support include Sarah
                   Ambrose, Christine Moritz, and Andrew VanLandingham.




Illinois State Medicaid Fraud Control Unit: 2012 Onsite Review (OEI-07-12-00510)              34
                Office of Inspector General

                                 http://oig.hhs.gov

The mission of the Office of Inspector General (OIG), as mandated by Public Law 95-452, as
amended, is to protect the integrity of the Department of Health and Human Services
(HHS) programs, as well as the health and welfare of beneficiaries served by those
programs. This statutory mission is carried out through a nationwide network of audits,
investigations, and inspections conducted by the following operating components:

Office of Audit Services
The Office of Audit Services (OAS) provides auditing services for HHS, either by conducting
audits with its own audit resources or by overseeing audit work done by others. Audits
examine the performance of HHS programs and/or its grantees and contractors in carrying
out their respective responsibilities and are intended to provide independent assessments of
HHS programs and operations. These assessments help reduce waste, abuse, and
mismanagement and promote economy and efficiency throughout HHS.

Office of Evaluation and Inspections
The Office of Evaluation and Inspections (OEI) conducts national evaluations to provide
HHS, Congress, and the public with timely, useful, and reliable information on significant
issues. These evaluations focus on preventing fraud, waste, or abuse and promoting
economy, efficiency, and effectiveness of departmental programs. To promote impact, OEI
reports also present practical recommendations for improving program operations.

Office of Investigations
The Office of Investigations (OI) conducts criminal, civil, and administrative investigations
of fraud and misconduct related to HHS programs, operations, and beneficiaries. With
investigators working in all 50 States and the District of Columbia, OI utilizes its resources
by actively coordinating with the Department of Justice and other Federal, State, and local
law enforcement authorities. The investigative efforts of OI often lead to criminal
convictions, administrative sanctions, and/or civil monetary penalties.

Office of Counsel to the Inspector General
The Office of Counsel to the Inspector General (OCIG) provides general legal services to
OIG, rendering advice and opinions on HHS programs and operations and providing all
legal support for OIG’s internal operations. OCIG represents OIG in all civil and
administrative fraud and abuse cases involving HHS programs, including False Claims Act,
program exclusion, and civil monetary penalty cases. In connection with these cases, OCIG
also negotiates and monitors corporate integrity agreements. OCIG renders advisory
opinions, issues compliance program guidance, publishes fraud alerts, and provides other
guidance to the health care industry concerning the anti-kickback statute and other OIG
enforcement authorities.
